CERTIFICATE OF SERVICE
Undersigned counsel certifies that on this date, the 4th day of September,
2020, pursuant to Supreme Court Rules 29.3 and 29.4, the accompanying motion for
leave to proceed in forma pauperis and petition for a writ of certiorari was served on
each party to the above proceeding, or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing these documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Hillar C. Moore III

Shae McPhee

District Attorney

Deputy Solicitor General

Office of the District Attorney
222 St. Louis Street, Suite 550

Office of Attorney General Jeff
Landry

Baton Rouge, Louisiana 70802

Cell: (225) 938-0779

Phone: (225) 389-3400

McPheeS@ag.louisiana.gov

_______________________________
Cecelia Trenticosta Kappel

